Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the City of Bridgeport, Connecticut
Police Department 
GR-70-00-014
June 8, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Bridgeport, Connecticut Police Department (Bridgeport).  The purpose of the grants is to enhance community policing.  Bridgeport was awarded a total of $2,850,000 to hire 38 new police officers and $208,575 to redeploy the equivalent of 8.3 full-time officers to community policing.  	

	We reviewed Bridgeport's compliance with eight essential grant conditions.  We found the grantee's practices with regard to budgeting for and hiring of officers, reimbursement requests, local match, retention, and community policing to be acceptable. However, we found weaknesses in two areas identified below.  As a result, we recommend that $208,575 be put to better use. 1

Bridgeport did not have a plan to track the redeployment resulting from computer equipment purchased under the MORE 96 grant. 

	Bridgeport failed to submit some monitoring reports, and many reports were not submitted timely.
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.




Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.